 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




     MEDICARE COMPLIANCE
REVIEW OF NORTH SHORE MEDICAL
  CENTER FOR CALENDAR YEARS
        2009 AND 2010




   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                  Michael J. Armstrong
                                                Regional Inspector General

                                                        March, 2013
                                                       A-01-12-00506
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, intended to be
payment in full to the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis
techniques. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for inpatient and outpatient services.

North Shore Medical Center (the Hospital), is a private, nonprofit organization, consisting of two
acute care facilities: Salem Hospital, a 273-bed hospital located in Salem, Massachusetts, and
Union Hospital, a 126-bed hospital located in Lynn, Massachusetts. Medicare paid the Hospital
approximately $224 million for 19,993 inpatient and 359,181outpatient claims for services
provided to beneficiaries during calendar years (CY) 2009 and 2010 based on CMS’s National
Claims History data.

Our audit covered $2,723,341 in Medicare payments to the Hospital for 316 claims that we
judgmentally selected as potentially at risk for billing errors. These 316 claims had dates of
service in CYs 2009 and 2010 and consisted of 244 inpatient and 72 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 75 of the 316 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 241 claims, resulting in overpayments totaling $816,003
for CYs 2009 and 2010. Specifically, 197 inpatient claims had billing errors, resulting in
overpayments totaling $791,743, and 44 outpatient claims had billing errors, resulting in
overpayments totaling $24,260. These errors occurred primarily because the Hospital did not
have adequate controls to prevent the incorrect billing of Medicare claims and did not fully
understand the Medicare billing requirements within the selected risk areas that contained errors.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $816,003, consisting of $791,743 in overpayments for
       197 incorrectly billed inpatient claims and $24,260 in overpayments for 44 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

NORTH SHORE MEDICAL CENTER COMMENTS

In written comments on our draft report, the Hospital concurred with our findings and
recommendations and stated that it has taken steps to strengthen controls to ensure full
compliance with Medicare requirements.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Outpatient Prospective Payment System ........................................................1
         Hospital Claims at Risk for Incorrect Billing ................................................................1
         Medicare Requirements for Hospital Claims and Payments .........................................2
         North Shore Medical Center..........................................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
          Objective .......................................................................................................................3
          Scope .............................................................................................................................3
          Methodology .................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Incorrectly Billed as Inpatient .......................................................................................5
          Incorrectly Billed as Separate Inpatient Stays ...............................................................5
          Incorrect Discharge Status.............................................................................................6
          Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained ........6
          Incorrect Source-of-Admission Code............................................................................7
          Incorrectly Billed Diagnosis-Related Group Code .......................................................7

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................8
          Incorrectly Billed Outpatient Services with Modifier -59 .............................................8
          Incorrectly Billed Intensity Modulated Radiation Therapy Planning Services .............8
          Manufacturer Credit for Replaced Medical Device Not Reported................................8
          Insufficiently Documented Services .............................................................................9
          Incorrectly Billed as Outpatient ....................................................................................9
          Incorrectly Billed Evaluation and Management Services or Healthcare Common
              Procedure Coding System Code ..............................................................................9

      RECOMMENDATIONS .....................................................................................................10

      NORTH SHORE MEDICAL CENTER COMMENTS .......................................................10

APPENDIXES

      A: RISK AREAS REVIEWED AND BILLING ERRORS

      B: NORTH SHORE MEDICAL CENTER COMMENTS

                                                                     iii
                                                 INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after August
1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-service
basis that varies according to the assigned ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 2 All services and items within an APC group are
comparable clinically and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis
techniques. Examples of these types of claims at risk for noncompliance included the following:

1
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                         1
    •   inpatient short stays,

    •   inpatient same-day discharges and readmissions,

    •   inpatient transfers,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   inpatient psychiatric facility (IPF) emergency department adjustments,

    •   inpatient claims billed with high severity level DRG codes,

    •   outpatient claims billed with modifiers,

    •   outpatient intensity modulated radiation therapy (IMRT) planning services,

    •   outpatient claims billed during inpatient stays, and

    •   outpatient claims billed with evaluation and management (E&M) services.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

North Shore Medical Center

North Shore Medical Center (the Hospital), is a private, nonprofit organization, consisting of two
acute care facilities: Salem Hospital, a 273-bed hospital located in Salem, Massachusetts, and

                                                   2
Union Hospital, a 126-bed hospital located in Lynn, Massachusetts. Medicare paid the Hospital
approximately $224 million for 19,993 inpatient and 359,181 outpatient claims for services
provided to beneficiaries during calendar years (CY) 2009 and 2010 based on CMS’s National
Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $2,723,341 in Medicare payments to the Hospital for 316 claims that we
judgmentally selected as potentially at risk for billing errors. (See Appendix A.) These 316
claims consisted of 244 inpatient and 72 outpatient claims. Of these 316 claims, 315 had dates
of service in CYs 2009 and 2010. One claim (involving a replaced medical device) had a date of
service in CY 2011.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected 117
claims to focused medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

Our fieldwork included contacting the Hospital, located in Salem and Lynn, Massachusetts, from
May through November 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2009 and 2010;




                                                 3
   •   obtained information on known credits for replaced cardiac medical devices from the
       device manufacturers for CYs 2009 through 2011;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   judgmentally selected 316 claims (244 inpatient and 72 outpatient) for detailed review;

   •   reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the selected claims;

   •   requested that the Hospital conduct its own review of the selected claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   used CMS’s Medicare contractor medical review staff and an independent contractor to
       determine whether 117 selected claims met medical necessity requirements;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 75 of the 316 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 241 claims, resulting in overpayments totaling $816,003
for CYs 2009 and 2010. Specifically, 197 inpatient claims had billing errors, resulting in
overpayments totaling $791,743, and 44 outpatient claims had billing errors, resulting in
overpayments totaling $24,260. These errors occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims and did not fully


                                                4
understand the Medicare billing requirements within the selected risk areas that contained errors.
For a detailed list of the risk areas that we reviewed and associated billing errors, see Appendix
A.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 197 of 244 selected inpatient claims that we
reviewed. These errors resulted in overpayments totaling $791,743. One claim contained more
than one type of error.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 120 of the 244 selected claims, the Hospital incorrectly billed Medicare Part A for
beneficiary stays that should have been billed as outpatient or outpatient with observation
services. The Hospital stated that it followed a clinical evaluation process by following
Medicare guidance to the best of its ability and hired an outside consultant to review these
claims. As a result of these errors, the Hospital received overpayments totaling $635,716. 3

Incorrectly Billed as Separate Inpatient Stays

The Manual, chapter 3, section 40.2.5, states:

        When a patient is discharged/transferred from an acute care Prospective Payment System
        (PPS) hospital, and is readmitted to the same acute care PPS hospital on the same day for
        symptoms related to, or for evaluation and management of, the prior stay’s medical
        condition, hospitals shall adjust the original claim generated by the original stay by
        combining the original and subsequent stay onto a single claim.

For 15 of the 244 selected claims, the Hospital billed Medicare separately for related discharges
and readmissions within the same day. The Hospital stated that these errors occurred primarily
because its patient registration software did not always identify claims for case management to
determine whether the stays were related. As a result of these errors, the Hospital received
overpayments totaling $69,085.




3
  The Hospital may be able to bill Medicare Part B for some services related to some of these incorrect Medicare
Part A claims. We were unable to determine the effect that billing Medicare Part B would have on the overpayment
amount because these services had not been billed or adjudicated by the Medicare administrative contractor prior to
the issuance of our report.



                                                         5
Incorrect Discharge Status

Federal regulations (42 CFR § 412.4(b)) state that a discharge of a hospital inpatient is
considered to be a transfer if the patient is readmitted the same day to another hospital unless the
readmission is unrelated to the initial discharge. A discharge of a hospital inpatient is also
considered to be a transfer when the patient’s discharge is assigned to one of the qualifying
DRGs and the discharge is to an IPF or to home under a written plan of care for the provision of
home health services from a home health agency and those services begin within 3 days after the
date of discharge (42 CFR § 412.4(c)). A hospital that transfers an inpatient under the above
circumstances is paid a graduated per diem rate for each day of the patient’s stay in that hospital,
not to exceed the full DRG payment that would have been paid if the patient had been discharged
to another setting (42 CFR § 412.4(f)).

For 9 of the 244 selected claims, the Hospital incorrectly billed Medicare for patient discharges
that should have been billed as transfers. For these claims, the Hospital should have coded the
discharge status either as a transfer to an acute care hospital, to home under a written plan of care
for the provision of home health services, or to an IPF. However, the Hospital incorrectly coded
the discharge status to home, left against medical advice, or discharged to hospice; thus, the
Hospital should have received the per diem payment instead of the full DRG. The Hospital
stated that the errors occurred primarily because some of the patients left against medical advice
and the hospital did not know that the patients entered another facility. As a result of these
errors, the Hospital received overpayments totaling $46,521.

Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained

Federal regulations (42 CFR § 412.89) require reductions in the IPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider, (2)
the provider receives full credit for the cost of a device, or (3) the provider receives a credit equal
to 50 percent or more of the cost of the device. The Manual, chapter 3, section 100.8, states that
to correctly bill for a replacement device that was provided with a credit, hospitals must use the
combination of condition code 49 or 50, along with value code “FD.”

Prudent Buyer Principle

Federal regulations (42 CFR § 413.9) state that “All payments to providers of services must be
based on the reasonable cost of services .…” The CMS Provider Reimbursement Manual
(PRM), part I, section 2102.1, states:

       Implicit in the intention that actual costs be paid to the extent they are reasonable is the
       expectation that the provider seeks to minimize its costs and that its actual costs do not
       exceed what a prudent and cost conscious buyer pays for a given item or service. If costs
       are determined to exceed the level that such buyers incur, in the absence of clear evidence
       that the higher costs were unavoidable, the excess costs are not reimbursable under the
       program.




                                                  6
Section 2103 of the PRM further defines prudent buyer principles and states that Medicare
providers are expected to pursue free replacements or reduced charges under warranties. Section
2103(C)(4) of the PRM provides the following example:

       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer
       for full or partial credits available under the terms of the warranty covering the
       replaced equipment. The credits or payments that could have been obtained must
       be reflected as a reduction of the cost of the equipment.

For 4 of the 244 selected claims, the Hospital either received a reportable medical device
credit from a manufacturer for a replaced device, but did not adjust its inpatient claims
with the proper condition and value codes to reduce payment as required (3 errors), or did
not obtain a credit for a replaced device that was available under the terms of the
manufacturer’s warranty (1 error). The Hospital stated that the errors occurred because it
did not have procedures for coordinating functions among various departments (i.e.,
revenue cycle, patient accounts, and cardiac catheterization lab) to ensure that it
submitted claims correctly. As a result of these errors, the Hospital received
overpayments totaling $33,375.

Incorrect Source-of-Admission Code

According to Federal regulations (42 CFR § 412.424), CMS increases the Federal per diem rate
for the first day of a Medicare beneficiary’s IPF stay to account for the costs associated with
maintaining a qualifying emergency department. The Manual, chapter 3, section 190.6.4 states
that CMS makes this additional payment regardless of whether the beneficiary used emergency
department services. However, the IPF should not receive the additional payment if the
beneficiary was discharged from the acute-care section of the same hospital.

The Manual, chapter 3, section 190.6.4.1, states that source-of-admission “D” is reported by IPFs
to identify IPF patients who have been transferred to the IPF from the same hospital. The IPF’s
proper use of this code is intended to alert the Medicare contractor not to apply the emergency
department adjustment.

For 49 of the 244 selected claims, the Hospital incorrectly coded the source of admission for
beneficiaries who were admitted to the IPF upon discharge from the Hospital’s acute-care
section. The Hospital stated that the errors occurred because the admission source code “D” was
not an available option in the Hospital’s billing system. As a result of these errors, the Hospital
received overpayments totaling $4,334.

Incorrectly Billed Diagnosis-Related Group Code

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, the Manual, chapter 1,



                                                 7
section 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be
completed accurately ….”

For 1 of the 244 selected claims, the Hospital billed Medicare for an incorrect DRG code. The
Hospital attributed this to human error. As a result of this error, the Hospital received an
overpayment of $2,712.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 44 of 72 selected outpatient claims that we
reviewed. These errors resulted in overpayments totaling $24,260. One claim contained more
than one type of error.

Incorrectly Billed Outpatient Services With Modifier -59

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately ….” In addition, chapter 23, section 20.9.1.1,
states: “The ‘-59’ modifier is used to indicate a distinct procedural service …. This may
represent a different session or patient encounter, different procedure or surgery, different site, or
organ system, separate incision/excision, or separate injury (or area of injury in extensive
injuries).”

For 6 of the 72 selected claims, the Hospital incorrectly billed Medicare for HCPCS codes,
appended with modifier -59, for services that were already included in the payments for other
services billed on the same claim. The Hospital stated that these errors occurred due to a
misinterpretation of the billing requirements for modifier -59. As a results of these errors, the
Hospital received overpayments totaling $8,067.

Incorrectly Billed Intensity Modulated Radiation Therapy Planning Services

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately ….” In addition, chapter 4, section 200.3.2,
requires that certain services should not be billed when they are performed as part of developing
an IMRT plan.

For 19 of the 72 selected claims, the Hospital incorrectly billed Medicare for services that were
already included in the payment for IMRT planning services billed on the same claim. These
services were performed as part of developing an IMRT plan and should not have been billed in
addition to the HCPCS code for IMRT planning. The Hospital stated that these errors occurred
because the clinicians were not always aware of the IMRT billing requirements. As a result of
these errors, the Hospital received overpayments totaling $6,307.

Manufacturer Credit for Replaced Medical Device Not Reported

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or

                                                  8
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, section
61.3, explain how a provider should report no-cost and reduced-cost devices under the OPPS.
For services furnished on or after January 1, 2007, CMS requires the provider to report the
modifier “FB” and reduced charges on a claim that includes a procedure code for the insertion of
a replacement device if the provider incurs no cost or receives full credit for the replaced device.
 If the provider receives a replacement device without cost from the manufacturer, the provider
must report a charge of no more than $1 for the device.

For 1 of the 72 selected claims, the Hospital received full credit for a replaced device but did not
report the “FB” modifier and reduced charges on its claim. The Hospital stated that the error
occurred because it did not have procedures for coordinating functions among various
departments (i.e., revenue cycle, patient accounts, and cardiac catheterization lab) to ensure that
it submitted claims correctly. As a result of this error, the Hospital received an overpayment of
$5,341.

Insufficiently Documented Services

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider.

For 4 of the 72 selected claims, the Hospital incorrectly billed Medicare for services that were
not supported in the medical record. The Hospital attributed this to human error. As a result of
these errors, the Hospital received overpayments totaling $2,946.

Incorrectly Billed as Outpatient

The Manual, chapter 3, section 10.4, states that Part A covers certain items and nonphysician
services furnished to inpatients and consequently the inpatient prospective payment rate covers
these services.

For 8 of the 72 selected claims, the Hospital incorrectly billed Medicare Part B for outpatient services
provided during an inpatient stay that should have been included on the Hospital’s inpatient (Part A)
bills to Medicare. The Hospital stated that these errors occurred because its billing software was
not programmed to identify all outpatient services provided during inpatient stays. As a result
of these errors, the Hospital received overpayments totaling $1,303.

Incorrectly Billed Evaluation and Management Services or Healthcare Common Procedure
Coding System Code

The Manual, chapter 12, section 30.6.6(B), states that a Medicare contractor pays for an E&M
service that is significant, separately identifiable, and above and beyond the usual pre- and post-
operative work of the procedure. The Manual, chapter 1, section 80.3.2.2, states: “In order to be
processed correctly and promptly, a bill must be completed accurately ….”
                                                   9
For 7 of the 72 selected claims, the Hospital incorrectly billed Medicare for E&M services that
were not significant, separately identifiable, and above and beyond the usual pre- and post-
operative work of the procedure (6 errors), or with an incorrect HCPCS code (1 error). The
E&M services were primarily associated with joint injections. The Hospital stated that the E&M
errors occurred because its coding staff did not always understand the billing requirements for
E&M services and the incorrect HCPCS code to human error. As a result of these errors, the
Hospital received net overpayments totaling $296.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $816,003, consisting of $791,743 in overpayments for
       197 incorrectly billed inpatient claims and $24,260 in overpayments for 44 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

NORTH SHORE MEDICAL CENTER COMMENTS

In written comments on our draft report, the Hospital concurred with our findings and
recommendations and stated that it has taken steps to strengthen controls to ensure full
compliance with Medicare requirements. The Hospital’s comments are included in their entirety
as Appendix B.




                                              10
APPENDIXES
                    APPENDIX A: RISK AREAS REVIEWED AND BILLING ERRORS



                                                                           Claims
                                                            Value Of        With     Value Of
                                                 Selected   Selected       Over-      Over-
                    Risk Area                    Claims      Claims       payments   payments
Inpatient

Short Stays                                        106        $509,188      104        $489,274
Claims Billed with High-Severity-Level
                                                   40          354,620       15         142,534
Diagnosis-Related Group Codes
Same-Day Discharges and Readmissions               18          304,815       16          75,705

Transfers                                           9           79,014       9           46,521
Manufacturer Credits for Replaced Medical
                                                    7          184,464       4           33,375
Devices
Psychiatric Facility Emergency Department
                                                   49          742,736       49           4,334
Adjustments
Hospital-Acquired Conditions and Present-on-
                                                   15          336,824       0                  0
Admission Indicator Reporting
 Inpatient Totals                                  244       $2,511,661     197        $791,743



Outpatient

Claims Billed with Modifiers                       22          $43,858       9          $10,272
Intensity Modulated Radiation Therapy Planning
                                                   20           91,021       20           7,003
Services
Manufacturer Credits for Replaced Medical
                                                    3           52,256       1            5,341
Devices
Claims Billed During Inpatient Stays               12             1,971      8            1,303
Claims Billed with Evaluation and Management
                                                   10             2,084      6             341
Services
Claims Billed for Doxorubicin Hydrochloride         5           20,490       0                  0

 Outpatient Totals                                 72         $211,680       44         $24,260



 Inpatient and Outpatient Totals                   316       $2,723,341     241        $816,003
           APPENDIX B: NORTH SHORE MEDICAL CENTER COMMENTS
                                                          Page 1 of 2




                                                                          81 Highland Avenue
                                                                          Salem, MA 01970
                                                                          Tel: (978) 741-1200
                                                                          nsmc.partners.org


                                                                  February 28, 2013


Michael J. Armstrong, CPA
Regional Inspector General for Audit Services
Office of the Inspector General, Office of Audit Services
John F. Kennedy Federal Building
15 New Sudbury Street Room 2425
Boston, MA 02203

RE: Report Number A-01-12-00506

Dear Mr. Armstrong:

On behalf on North Shore Medical Center (the “Hospital”), this letter is in response to the U.S.
Department of Health and Human Services, Office of the Inspector General (OIG), draft report
entitled Medicare Compliance Review of North Shore Medical Center for Calendar Years 2009 and
2010. North Shore Medical Center (NSMC) appreciates the opportunity to respond to the
Government’s report.

The OIG reviewed selected claims in thirteen areas determined to be at risk for noncompliance with
Medicare billing requirements based on prior OIG Compliance Reviews of payments to hospitals.
The OIG audit covered $2,723,341 in Medicare payments to the Hospital for 316 claims (244
inpatient and 72 outpatient claims). We understand that these claims were judgmentally selected by
the OIG as potentially at risk for billing errors. As a result of the detailed review, the OIG
identified 241 claims with billing errors, totaling $816,003 in net overpayments for CY 2009 and
2010.

The Hospital’s responses to the OIG’s recommendations are set forth below. Unless otherwise
stated, the Hospital generally agrees with the Government’s findings and is processing the
necessary adjustments through its Medicare Administrative Contractor, NHIC.

Inpatient Short Stays: The Hospital has strengthened its controls in this area by educating
physicians and residents on level of care determination. The hospitalist service has hired an in-
house physician advisor to review cases with case managers and treating physicians on selecting the
appropriate level of care. The Hospital will continue to provide documentation and compliance
education to coding and clinical documentation improvement staff, and attending physicians and
residents on an on-going basis. Further, the Hospital will continue to monitor and audit short stay
admissions and remediate identified errors.
                                                                                     Page 2 of 2


Inpatient Claims Billed with High-Severity-Level Diagnosis-Related Group Codes: Of the 244
selected claims, the OIG found 1 incorrect DRG code. The Hospital Coding Department has
adequate controls in place.

Inpatient Same-Day Discharges and Readmissions: The Hospital has improved processes with
Patient Registration and Case Management to prevent these errors. Hospital software has been
reprogrammed to ensure the reporting of same day readmissions.

Inpatient Transfers: The Hospital and Case Management have implemented controls to ensure the
accurate discharge status code is selected prior to billing.

Inpatient and Outpatient Manufacturer Credits for Replaced Medical Devices: NSMC has
implemented controls and established operational procedure in coordination with Revenue
Operations, Patient Accounts, and the Cardiac Catheterization Laboratory. The Hospital will
continue to monitor the process to track potential no-cost and reduced-cost replacement devices.

Inpatient Psychiatric Facility Emergency Department Adjustments: The Hospital established
controls in the billing system for source code “D” prior to the OIG audit. In 2009 and 2010, the
error occurred because admission source code “D” was not an available option in the Hospital’s
billing system.

Outpatient Claims Billed with Modifiers: The Hospital coding staff launched an initiative prior
to the OIG audit to ensure the appropriate use of modifiers. The Coding Department will continue
to monitor and audit the use of modifiers.

Outpatient Intensity Modulated Radiation Therapy Planning (IMRT) Services: The Hospital
no longer provides IMRT services.

Outpatient Claims Billed with Evaluation and Management Services: The Hospital has
provided education to the department where these errors occurred. The Hospital continues to
monitor clinical departments to ensure the appropriate use of E/M services with procedures.

Outpatient Services Billed During Inpatient Stays: The Hospital has enhanced its process to
identify all outpatient services provided within 72 hours of an inpatient stay.

North Shore Medical Center is committed to compliance with applicable Federal and State laws and
regulations and the requirements of payers. We appreciate the coordination, collaboration, and
guidance of the OIG audit team throughout the process, and thank you for the opportunity to
respond to the OIG’s draft report.

Sincerely,

/Marcia Widmer/

Marcia Widmer, MPP, CPC
Director of Compliance and Audit Services
